No. 19-608

 

 

In THE
Supreme Court of the United States

MARK ELSTER and SARAH PYNCHON,

Petitioner,
v.

THE CITY OF SEATTLE,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Washington

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,802 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 10, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
